0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Jason Laut
v. United States of America was sent via Next Day
Service to the U.S. Supreme Court, and e-mail to the
following parties listed below, this 8th day of June,
2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
John Christopher Korevec
Counsel of Record
Kirkland & Ellis LLP
555 S. Flower Street
Suite 3700
Los Angeles, CA 90071
(213) 680-8400
john.korevec@kirkland.com
Erin E. Murphy
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
erin.m urphy@kirkland.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 8, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

d:IA €. <f)

dG 01)

c}(~ U- ! J ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Siate nr Ohio
My Commission Expires
February 14, 2023

